Department of Homeland Security
   Ofﬁce of Inspector General

         Improvements to Internal Controls for 

          FEMA's Individuals and Households 

            Program Registration Process 


                                            (Redacted)





 Notice: This report remains the property of the DHS Office of Inspector General (DHS OIG) at all times and, as
 such, is not to be publicly disclosed without the express permission of the DHS OIG. Requests for copies of this
 report should be immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure
 compliance with all applicable disclosure laws.




OIG-09-110                                                                               September 2009
Table of Contents/Abbreviations


Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 



Results of Review ................................................................................................................4 


    Improvements in Controls Since 2005 Gulf Coast Hurricanes.......................................4 

    Challenges Remain .........................................................................................................7 

    Major Disaster Business Plan .......................................................................................10 

    Conclusions...................................................................................................................11 

    Recommendations.........................................................................................................12 

    Management Comments and OIG Analysis .................................................................13 


Appendices


    Appendix A:         Purpose, Scope and Methodology ..........................................................14 

    Appendix B:         Management Comments to the Draft Report ..........................................15 

    Appendix C:         Major Contributors to this Report ...........................................................18 

    Appendix D:         Report Distribution..................................................................................19 


Abbreviations
      

     DHS                 Department of Homeland Security 

     EFT                 Electronic Funds Transfer 

     FEMA                Federal Emergency Management Agency 

     GAO                 Government Accountability Office 

     IHP                 Individuals and Households Program

     NEMIS               National Emergency Management Information System 

     OIG                 Office of Inspector General 

     SSA                 Social Security Administration 

     SSN                 Social Security Number 

      

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Federal Emergency Management Agency (FEMA) has made
                significant improvements to the Individuals and Households
                Program (IHP) disaster assistance registration approval process,
                but more could be done to better utilize the additional information
                FEMA is obtaining from outside sources. For the 2008 disasters
                we examined, FEMA has been obtaining information to validate
                assertions concerning (1) identity, (2) occupancy, and (3)
                ownership made by all IHP registrants. FEMA also established a
                standard policy that will authorize IHP payments only after an
                inspector meets with the IHP registrant, inspects the damaged
                property, reviews documentation provided by the registrant, and
                provides a report to FEMA.

                Inspecting a property prior to issuing disaster assistance is
                fundamentally a sound control procedure; however, the process
                could be improved if FEMA provided inspectors with information
                on the results of the identity, occupancy, and/or ownership validity
                checks before they meet with the registrant and conduct the
                physical inspection.

                In major disasters such as the 2005 hurricanes Katrina and Rita,
                FEMA did not have the time to interview all IHP registrants and
                inspect the damaged property prior to providing disaster assistance.
                FEMA's decision to authorize payments without conducting
                interviews and inspections made the IHP program vulnerable to
                making payments on duplicate and potentially fraudulent
                registrations


                                                     Finally, FEMA needs an
                approved business plan that clearly articulates the steps it will take
                to quickly and accurately provide disaster assistance payments, in
                situations where inspecting all properties before issuing disaster
                assistance is not practical.




               Improvements to Internal Controls for FEMA's Individuals
                    and Households Program Registration Process

                                       Page 1
Background
                           Immediately after the President declares a disaster, affected
                           individuals are able to apply for individual assistance from the
                           Individuals and Households Program (IHP) in person, by calling a
                           toll-free telephone number, or through the Internet. Registrants
                           provide FEMA a variety of information on the registration,
                           including: name, social security number (SSN), damaged address
                           and telephone number, current address and telephone number,
                           insurance information, total household income, bank routing and
                           account information, and a description of losses incurred because
                           of the disaster.

                           By applying for IHP assistance, individuals are potentially eligible
                           for the following types of disaster-related assistance: temporary
                           housing (rent and lodging), home repair, home replacement,
                           personal property repair or replacement, transportation repair or
                           replacement, medical and dental expenses, funeral and burial costs,
                           moving and storage expenses, and other related needs such as
                           generators and the cost of flood insurance.

                           FEMA administers IHP disaster assistance through the National
                           Emergency Management Information System (NEMIS), and
                           contracts with a third-party contractor to attempt to validate
                           identity, occupancy, ownership, and other information provided by
                           registrants during the registration process. In addition, FEMA can
                           use edit checks in NEMIS to identify duplicate registrations and to
                           prevent duplicate payments to registrants who have provided
                           invalid and/or fraudulent information when registering for
                           assistance. The contractor validates information provided by
                           registrants by comparing the registrant's name with the SSN, the
                           name with the address, and other pieces of information provided.

                           Once FEMA accepts a registration, it requests a physical
                           inspection of the registration address to be performed by a FEMA
                           contractor. 1 To perform a physical inspection, an inspector meets
                           with a registrant and reviews documentation to validate (1) the
                           registrant's identity, (2) the registrant's occupancy of the damaged
                           address, and (3) if applicable, the registrant's ownership of the
                           damaged address. To validate the registrant's identity, occupancy,
                           and/or ownership, the inspector is required to view physical
                           documentation provided by the registrant, such as a driver's

1
 Two contractors, Alltech and PaRR, are currently assigned to perform all disaster-related inspections for
FEMA. Independent subcontractors, hired by the contractors, perform the physical inspections.

                         Improvements to Internal Controls for FEMA's Individuals
                              and Households Program Registration Process

                                                  Page 2
 license, merchant's statement or utility bills substantiating a
 registrant's identity and occupancy of the damaged address.

 To validate ownership of a damaged address, the inspector reviews
 mortgage documents, tax assessment records, or homeowner's
 insurance documents. Once the inspector views a registrant's
 documentation, he or she inspects the address to determine what
 physical damage, if any, was sustained during the disaster. The
 inspector then records the validation of a registrant's
 documentation and the damage incurred due to the disaster on a
 FEMA-provided computer. The inspector subsequently uploads
 this data to NEMIS, and FEMA determines the type and amount of
 assistance that the registrant is eligible to receive.

 On August 29, 2005, Hurricane Katrina struck several Gulf Coast
 states, including Alabama, Mississippi, and Louisiana, as a
 Category 3 hurricane. On September 24, 2005, Hurricane Rita,
 another Category 3 hurricane, struck Louisiana and Texas. These
 hurricanes caused catastrophic damage to the Gulf Coast. As part
 of the IHP program, about 2.5 million individuals applied for
 disaster assistance, and FEMA authorized about 1.5 million of
 these applicants as eligible for IHP disaster assistance. Because of
 the high volume of IHP registrations, FEMA turned off many of its
 system controls in order to process registrations in a timely
 manner. However, a subsequent Government Accountability
 Office (GAO) audit estimated that FEMA made between $600
 million and $1.4 billion in payments to potentially fraudulent
 registrations because effective controls were not in place.

 Between March and June 2008, heavy rains in Midwestern states
 caused multiple rivers to overflow and flood. States affected by
 the flooding include Illinois, Indiana, Iowa, Michigan, Minnesota,
 Missouri, and Wisconsin. The President declared disasters in these
 states, resulting in more than 100,000 registrants applying for IHP
 disaster assistance and FEMA paying more than 60,000 registrants
 for IHP disaster assistance as of October 14, 2008. In August and
 September 2008, hurricanes Gustav and Ike hit the Gulf Coast
 states of Louisiana and Texas. The President declared disasters for
 these two hurricanes, resulting in more than 1.2 million individuals
 applying for federal assistance. As of March 13, 2009, FEMA had
 authorized 200,000 individuals to receive IHP assistance for
 hurricanes Gustav and Ike.




Improvements to Internal Controls for FEMA's Individuals
     and Households Program Registration Process

                        Page 3
Results of Review
          The results of our analysis of FEMA data from hurricanes Katrina and
          Rita in 2005 and data from more recent disasters shows substantial
          improvements in internal controls, resulting in far fewer instances of
          payments being made to registrations with duplicate and invalid key data.
          However, FEMA is not fully using its validity checks for key registration
          data, and payments have been made to thousands of registrations that have
          failed key checks for identity, occupancy, and/or ownership. FEMA does
          have compensating controls in place to help ensure that registrations
          failing data checks have identity, occupancy, and/or ownership validated
          prior to a payment being issued, such as requiring a physical inspection of
          a damaged property and a registrant's documentation. However, failed
          checks do indicate registrations that are at a higher risk of being
          fraudulent, and should be scrutinized more thoroughly in the event FEMA
          cannot conduct inspections in a timely manner. Further, the results of
          these checks are not being passed to inspectors so that they can validate or
          overturn the claims after viewing registrant-submitted documentation
          during a physical inspection of the damaged property. Finally, FEMA
          needs a business plan that will guide decision-making and expedite
          disaster payments to valid registrants in the event of a major disaster
          where it is unable to conduct a physical inspection of damaged properties.

     Improvements in Controls Since 2005 Gulf Coast Hurricanes
          Our analysis of FEMA IHP payment data for hurricanes Katrina and Rita
          and selected 2008 disasters showed that the number of duplicate,
          improper, and potentially fraudulent registrations receiving payment has
          been substantially reduced. FEMA officials acknowledged control
          breakdowns occurring subsequent to the 2005 Gulf Coast hurricanes, and
          said they were not preventable due to the size of the disasters, the
          magnitude of exception reports generated by the system, the shortage of
          management personnel to manually review registrations, and the need to
          turn off some controls in order to process assistance payments in a timely
          manner. FEMA has claimed that the weak control environment in 2005
          was exceptional and that the control environment is much better for
          smaller disasters. The stronger control environment in smaller disasters is
          due in large part to FEMA's ability to implement a 100% inspection
          policy, where all registrations eligible for payment are inspected and a
          FEMA contractor interviews a representative of the registrant before
          authorizing payment.

          To demonstrate the weaknesses in the controls for hurricanes Katrina and
          Rita payments, we analyzed FEMA IHP data for the 1.5 million registrants
          receiving payments to identify duplicate and potentially fraudulent data

                Improvements to Internal Controls for FEMA's Individuals
                     and Households Program Registration Process

                                        Page 4
                 contained in the registration databases for the 2005 Gulf Coast hurricanes.
                 Specifically, FEMA made duplicate, improper, and potentially fraudulent
                 IHP payments to registrations based on the following information:
                        • Invalid SSNs (based on the Social Security Administration's
                            (SSA) guidance on invalid SSN number strings)
                        • Multiple registrations with the same SSNs
                        • Post Office boxes that were listed as the disaster-damaged
                            addresses
                        • Multiple registrations with the same bank routing numbers and
                            account numbers
                        • Multiple registrations with the same disaster-damaged
                            addresses and current addresses. 2

                 Office of Inspector General (OIG) audits, as well as other oversight audits
                 performed by GAO, identified serious internal control failures that
                 occurred as part of FEMA's disaster assistance program after hurricanes
                 Katrina and Rita. As a result of audit work, registrations identified as
                 potentially fraudulent were referred to investigators for further
                 investigation and, where applicable, for prosecution.

                 To test for changes in FEMA's internal control environment since 2005,
                 we requested that FEMA provide databases of registrations and payments
                 for the 2005 Gulf Coast hurricanes, the 2008 Midwest floods, and the
                 2008 Gustav and Ike hurricanes. We then tested the registration and
                 payment data for the current disasters to determine if FEMA was making
                 the same types of problematic payments made after the 2005 Gulf Coast
                 hurricanes. Our analysis of the 2008 disaster registration and payment
                 data showed that FEMA made virtually no payments to registrants with
                 invalid or duplicate SSNs and made far fewer payments to registrants who
                 had provided other duplicate information for the 2008 disasters. The
                 results of the tests for the 2005 Gulf Coast hurricanes, the 2008 Midwest
                 floods, and the 2008 Gustav and Ike hurricanes are shown in table 1.




2
 We were unable to provide a list of SSNs accepted by FEMA from registrants to the Social Security
Administration to be run against the SSA database of valid SSNs.

                        Improvements to Internal Controls for FEMA's Individuals
                             and Households Program Registration Process

                                                 Page 5
Table 1. Comparison of Fraud Prevention Tests Conducted on the 2005
Gulf Coast Hurricanes and the 2008 Midwest Floods and Hurricanes
Gustav and Ike Payments
                               Gulf Coast       Midwest      Hurricane       Hurricane
                               Hurricanes       Floods1       Gustav2          Ike2
    Total registrations        2.6 million       107,000           441,000     788,000
    Total registrations        1.5 million        62,000            70,000     130,000
    receiving payment
    Duplicate damaged               380,000         1,700            4,400      10,100
    addresses
    Duplicate damaged               111,000           600            3,100       5,200
    and current addresses
    Invalid SSNs                        700             6               2          11
    Duplicate SSNs                   33,000             2              21          16
    Post Office Boxes                 2,200             4               4          14
    Duplicate Electronic             23,000            14              46         136
    Funds Transfer (EFT)
    accounts
1
Data based on FEMA registration and payment data as of October 14, 2008.
2
Data based on FEMA registration and payment data as of March 13, 2009.

The results of our data analysis for the 2005 Gulf Coast hurricanes showed
that FEMA paid more than 100,000 registrations based on potentially
fraudulent information. Specifically, out of about 1.5 million registrations
receiving FEMA payments, more than 30,000 had invalid or duplicate
SSNs, more than 20,000 had duplicate American Bankers Association
bank routing numbers and bank account numbers, and more than 100,000
had duplicate damaged and current household addresses. FEMA paid
hundreds of millions of dollars to these duplicate, improper or potentially
fraudulent 2005 Gulf Coast hurricane registrations. In addition, the tests
identified the same types of internal control weaknesses and the kinds of
potential cases that OIG and GAO had previously reported. According to
FEMA officials, during the 2005 Gulf Coast hurricanes, FEMA turned off
some internal controls in order to process disaster assistance payments in a
timely manner, leading to internal control problems and payments based
on invalid and duplicate registrations.

In contrast, far fewer payments were issued based on duplicate or invalid
information for selected 2008 disasters. The data indicate that FEMA had
a strong control environment in place during the Midwest flood disasters
and hurricanes Gustav and Ike in 2008. For example, the same tests used
to identify control weaknesses in the 2005 Gulf Coast hurricanes revealed
no registrants with invalid or duplicate SSNs being paid as part of the
Midwest floods or hurricanes Gustav and Ike. In addition, far fewer
        Improvements to Internal Controls for FEMA's Individuals
             and Households Program Registration Process

                                Page 6
     registrants were paid based on duplicate addresses and banking data in
     2008 disasters when compared to the 2005 hurricanes. Registrants paid
     based on duplicate addresses are less risky than those that are paid based
     on other duplicate data because there are numerous reasons two valid
     registrants could share an address and still each receive payments. For
     example, two roommates would each be eligible to apply for and receive
     personal property reimbursement.

     Two key changes have led to an improved IHP control environment. First,
     FEMA has increased the number and scope of protective measures taken
     to ensure that registrations based on duplicate and invalid information do
     not become eligible for assistance payments. For the 2005 Gulf Coast
     hurricanes, FEMA used a contractor to provide limited validity reviews of
     its online registrations. However, not all key data elements were validated
     by the contractor, telephone registrations were not initially subject to any
     validity reviews, and detailed test results were not passed to FEMA for
     review. FEMA has improved its data review process considerably since
     2005. FEMA now passes all its registrations to the contractor for review,
     whether submitted online or by telephone. In addition, FEMA now
     requires the contractor to review more key data elements than in 2005.
     Currently, the contractor conducts multiple tests to establish the validity of
     a registrant's identity. In addition, the contractor performs reviews to
     determine whether the registrant was a valid occupant and/or owner of the
     damaged address. These upgrades to FEMA's contract provide a greater
     assurance that key registration information is valid, compared with the
     limited validity checks in place at the time of the 2005 Gulf Coast
     hurricanes.

     In addition, since 2005, FEMA has operated under a 100% inspection and
     interview environment. This means that prior to making a payment on any
     IHP registration, a FEMA contractor meets in person with the registrant
     and inspects the damaged property to determine what assistance, if any,
     the registrant is entitled to receive. This allows FEMA, in addition to
     validity tests performed by the contractor, to have its inspectors perform
     an additional onsite review of documentation provided by a registrant to
     show that the registrant resides in and/or owns and occupies the address
     claimed on the disaster assistance registration.

Challenges Remain
     When compared with the 2005 Gulf Coast hurricanes, improved upfront
     testing of key registration data elements, as well as a 100% inspection
     environment, have allowed FEMA to make significant improvements in its
     ability to identify and prevent payments to registrations based on duplicate
     or invalid data. However, challenges remain that could result in FEMA

           Improvements to Internal Controls for FEMA's Individuals
                and Households Program Registration Process

                                   Page 7
making payments to improper or potentially fraudulent registrants and
could hinder FEMA's ability to make timely payments to valid registrants
in the event of a major disaster.

A significant number of registrations that fail one or more validity tests are
receiving disaster assistance payments, according to data from the 2008
Midwest floods and hurricanes Gustav and Ike. While registrations failing
data validity checks are not necessarily invalid, those registrations are at a
higher risk of being fraudulent due to the lack of evidence substantiating
key registration data. In addition, while FEMA makes a preliminary
assessment of the validity of a registrant's identity, occupancy, and
ownership of the damaged property based on upfront computer checks,
FEMA does not provide inspectors with the results of that assessment
prior to a physical inspection. Inspectors can overrule the preliminary
assessment during a physical inspection based on viewing physical
documentation received from a registrant, but the failure to provide them
with these results leaves FEMA more vulnerable to registrants providing
fraudulent documentation at the time of inspection.

Payments to Registrations Failing Identity, Occupancy, and
Ownership

Our data analysis shows a significant number of FEMA disaster assistance
payments being made to registrations that failed one or more of the
identity, occupancy and ownership validity tests. Specifically, for the
2008 Midwest floods and hurricanes Gustav and Ike, roughly 50% of
registrants receiving disaster assistance payments had failed one or more
tests designed to validate identity, address, and occupancy and/or
ownership of a damaged address at the time of the disaster. There are
reasons why a valid registrant may fail one or more validity checks for key
registration data. For example, an apartment resident who is on a lease but
does not pay utility bills for the apartment may not be linked to the address
through public records. In that case, the registrant may fail the occupancy
validity check despite being a valid resident of the address. While validity
check failures do not necessarily mean a registration is invalid,
registrations that fail one or more of the validity tests are inherently more
likely to contain false or inaccurate information and thus have a higher
risk of resulting in payments based on fraudulent or improper registrant
information. Specific results of our data analysis are shown in Table 2.




      Improvements to Internal Controls for FEMA's Individuals
           and Households Program Registration Process

                              Page S
      Table 2. Midwest Floods, Hurricane Gustav, and Hurricane Ike
      registrants failing identity, occupancy and/or ownership tests and
      receiving payments
                                    Midwest       Hurricane        Hurricane
                                     Floods 1
                                                    Gustav 2
                                                                       Ike2
     Total registrations                107,000        441,000          788,000
     Total registrations                 62,000         70,000          130,000
     receiving payment
     Registrations failing               25,000         43,000           69,000
     one or more validity
     test
     Failures by type:
     Identity                                890         1,100             4,000
     Address                              7,800         14,300           25,400
     Occupancy                            8,900         17,000           36,200
     Ownership                           15,700         28,000           33,100
1
    Data based on FEMA registration and payment data as of October 14, 2008.
2
    Data based on FEMA registration and payment data as of March 13, 2009.

      Inspectors Not Provided with Identity, Occupancy and Ownership
      Validity Test Results

      Despite the prevalence of registrants who fail identity, occupancy, and/or
      ownership tests eventually receiving payment after a physical inspection,
      FEMA does not provide the results of these validity tests to the inspectors
      who will inspect the damaged property. As a result, inspectors are not
      able to evaluate registrations with invalid or suspect data with a higher
      level of scrutiny than they would give to a registration that has passed all
      key validity tests.

      In addition, inspectors are not required to independently validate
      documentation provided to them by disaster registrants to confirm identity,
      occupancy, and/or ownership. For example, if an inspector looks at a
      driver's license to establish a registrant's identity and/or occupancy, the
      inspector is not required to record the driver's license number or
      determine that the driver's license is valid with the State's Department of
      Motor Vehicles. In another example, if a registrant provides an inspector
      with a lease to show proof of occupancy, the inspector is not required to
      confirm lease information with neighbors, the leasing office, or the postal
      carrier to determine if additional evidence validates the lease. While
      additional scrutiny is perhaps unnecessary if a registrant has already
      passed all validity tests, the inspector's role could be expanded to include
      verifying registration data for registrations that failed one or more validity
      tests with third parties.

             Improvements to Internal Controls for FEMA's Individuals
                  and Households Program Registration Process

                                     Page 9
     Problems Exist in Occupancy Validation Checks

     FEMA uses occupancy validation checks to make a preliminary
     determination of whether an applicant occupied a damaged address at the
     time of a disaster.




     To validate a registrant's occupancy of a damaged address at the time of
     the disaster, FEMA uses a contractor to check the registrant's key personal
     information against available public records. However, while our tests
     confirmed the effectiveness of the contractor's ability to identify name and
     SSN mismatches,


                                                                Inspectors are
     required to validate occupancy during a physical inspection (such as by
     examining a driver's license or utility bill) before any IHP payments are
     authorized.




Ma�or �isaster Business Plan
     FEMA needs a business plan that could be implemented in the event of a
     major disaster (on the scale of hurricanes Katrina or Rita). FEMA needs
     to have a well thought-out business plan that could be adopted in the event
     of a major disaster if it is not practical to provide disaster assistance only
     after the damaged property has been inspected. Without a business plan to
     analyze the risk associated with different types of registrations, FEMA
     may deny timely assistance to registrants who have their identity,
     occupancy, and, if applicable, ownership confirmed by a third party.
     Historically, a backlog of registrants needing payments has caused FEMA
     to turn off its controls, making the process more vulnerable to fraud,
     waste, and abuse.



           Improvements to Internal Controls for FEMA's Individuals
                and Households Program Registration Process

                                   Page 10
     In 2005, the magnitude of damage caused by hurricanes Katrina and Rita
     prevented FEMA from performing inspections of all damaged addresses
     claimed on disaster assistance registrations. Since 2005, FEMA has
     operated under a 100% inspection environment for all disasters, meaning
     that it performs a physical inspection of a damaged address to determine
     eligibility before any payments are issued.

     Although FEMA expects to perform physical inspections of damaged
     addresses, it does not have a documented business plan in place to
     facilitate disaster assistance payments if a major disaster does not allow
     for timely 100% inspections. Further, FEMA does not assign risk values
     to disaster registrations based on the result of identity, occupancy, and
     ownership tests, nor does FEMA assign higher risk values to registrations
     that fail one or more key control tests. Based on its current policy, FEMA
     would face a tough decision if a disaster did not allow 100% of damaged
     addresses to be inspected in a timely manner. FEMA would have to either
     deny assistance to all registrants who had not received inspections and risk
     denying assistance to valid registrants, or decide how to distribute
     assistance to registrants who had not been inspected. Without a well-
     vetted business plan in place to withhold assistance from suspect
     registrants and to distribute initial assistance to registrants who pass all
     validity tests, FEMA may deny assistance to valid registrants or make
     payments to registrants who submit false and potentially fraudulent
     information. Conversely, FEMA would be forced to make spur-of-the-
     moment payment decisions without adequately addressing the pros and
     cons of its decisions.

Conclusions
     Our interviews and data analysis show that FEMA has improved its IHP
     program performance since 2005 because of increased controls through
     validity checks with a third-party contractor, and also being able to operate
     under a 100% inspection environment. However, FEMA still faces
     additional challenges in the registration and inspection process that make
     the IHP system vulnerable to paying improper and potentially fraudulent
     registrations. Specifically:

     •




           Improvements to Internal Controls for FEMA's Individuals
                and Households Program Registration Process

                                   Page 11
•





Further, FEMA does not have a business plan in place, based on a risk-
based analysis of registration data, which would help FEMA decide how
to give out immediate assistance if a major disaster does not allow 100%
inspections to be performed in a timely manner. Without a business plan
in place, FEMA will risk either dropping its control procedures and giving
out immediate assistance to registrants who have failed key validity tests,
or keeping its current control procedures and denying immediate
assistance to registrants who pass all key validity tests but are unable to
have their damaged address inspected. A risk-based plan would allow
FEMA to provide immediate assistance to low-risk registrants who pass
all key validity tests while delaying assistance to more risky registrants
who fail one or more key validity tests until data inconsistencies can be
resolved.

Recommendations
       We recommend that the Administrator, Federal Emergency
       Management Agency:

       Recommendation #1:


       Recommendation #2: Require inspectors to more closely
       examine the evidence that registrants provide overruling identity,
       occupancy, and ownership validity test failures.

       Recommendation #3: Systematically record driver's license
       numbers in NEMIS.

       Recommendation #4: Design procedures to validate the
       authenticity of identity, occupancy, and/or ownership information
       provided by disaster assistance registrants (at least on a sampling
       basis).

       Recommendation #5:




      Improvements to Internal Controls for FEMA's Individuals
           and Households Program Registration Process

                              Page 12
          Recommendation #6: Develop policy and standard operating
          procedures for expediting IHP assistance when traditional FEMA
          inspection is not feasible or may be delayed for a significant period
          of time that (1) seek to maximize identity, occupancy and
          ownership validation; and (2) define and document risk-based
          solutions for expediting assistance.

Management Comments and OIG Analysis
          We obtained written comments from the Acting Director, Office of
          Policy and Program Analysis. We have included a copy of the
          comments in Appendix B. The Acting Director, Office of Policy
          and Program Analysis concurred with all six recommendations
          with the exception that FEMA requires additional time to review
          the effectiveness and feasibility of recommendation �3.




         Improvements to Internal Controls for FEMA's Individuals
              and Households Program Registration Process

                                 Page 13
Appendix A
Purpose, Scope, and Methodology

                         The objectives of our work were to determine (1) whether FEMA
                         has instituted changes to respond to recommendations issued by
                         the OIG 3 and the GAO 4 designed to prevent fraud, waste, and
                         abuse in the IHP disaster assistance program observed after
                         hurricanes Katrina and Rita, and (2) the extent to which IHP
                         remains vulnerable to fraud, waste, and abuse.

                         To determine whether FEMA has instituted changes designed to
                         prevent the types of fraud and abuse that occurred after the 2005
                         Gulf Coast hurricanes, we interviewed FEMA officials to
                         determine the changes that FEMA has made to strengthen its
                         control environment. We also analyzed databases from the 2005
                         Gulf Coast hurricanes, the 2008 Midwest floods, and the 2008
                         Gustav and Ike hurricanes to determine the extent to which the
                         types of duplicate, improper and potentially fraudulent
                         registrations that resulted in payments in hurricanes Katrina and
                         Rita existed in the 2008 disasters. Finally, to determine the extent
                         to which FEMA's IHP program remains vulnerable to fraud, waste
                         and abuse, we analyzed new data to determine if additional
                         improvements could be implemented in FEMA's current internal
                         control environment.

                         Our work was conducted under the authority of the Inspector
                         General Act of 1978, as amended, and according to generally
                         accepted government auditing standards and President's Council
                         on Integrity and Efficiency investigative standards. Audit
                         fieldwork was conducted from March through November 2008, in
                         the Washington, DC, area and at the Virginia National Processing
                         Service Center.




3
 Expedited Assistance Overpayments, GC-HQ-06-06, dated November 1, 2005.

4
 Hurricanes Katrina and Rita Disaster Relief Continued Findings of Fraud, Waste, and Abuse, GAO-07-
300, dated March 2007. 


                       Improvements to Internal Controls for FEMA's Individuals
                            and Households Program Registration Process

                                               Page 14
Appendix B
Management Comments to the �raft Report




                 Improvements to Internal Controls for FEMA's Individuals
                      and Households Program Registration Process

                                         Page 15
Appendix B
Management Comments to the �raft Report




                 Improvements to Internal Controls for FEMA's Individuals
                      and Households Program Registration Process

                                         Page 16
Appendix B
Management Comments to the �raft Report




                 Improvements to Internal Controls for FEMA's Individuals
                      and Households Program Registration Process

                                         Page 17
Appendix C
Ma�or Contributors to this Report

                    Gina Smith, Director
                    John Ryan, Director
                    John Kelly, Director
                    Scott Wrightson, Forensics Specialist




                  Improvements to Internal Controls for FEMA's Individuals
                       and Households Program Registration Process

                                          Page 1S
Appendix �
Report �istribution

                      �epartment of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Assistant Administrator, Disaster Assistance Directorate
                      FEMA Audit Liaison (Project Code 09-109-EMO)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  Improvements to Internal Controls for FEMA's Individuals
                       and Households Program Registration Process

                                          Page 19
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
